HHS/OIG-Audit--"Audit of the Comprehensive Hemophilia Treatment Centers' Utilization of the Public Health Service 340B Drug Pricing Program, (A-01-98-01505)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Comprehensive Hemophilia Treatment Centers' Utilization of the Public Health Service 340B Drug Pricing
Program," (A-01-98-01505)
December 10, 1999
Complete
Text of Report is available in PDF format (818 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that improvements are needed to ensure that all State Medicaid Agencies benefit from the
price advantages available to Public Health Service (PHS) grantees under the PHS 340B Program (340B Program). The objective
of this audit was to determine whether comprehensive Hemophilia treatment centers (HTCs) participating in the PHS 340B
Program were participating for all of their patients, including Medicaid beneficiaries. Officials from 6 of the 23 participating
HTCs contacted stated that their entities participate (purchase outpatient drugs at the 340B discount price), but not for
their Medicaid beneficiaries. For one selected center, we determined that a State Medicaid Agency could achieve annual
savings ranging from $18,395 to $27,170 per person if it reimbursed the HTC at the 340B discount prices instead of the
Medicaid rate. We recommended that the Health Resources and Services Administration (HRSA) and the Health Care Financing
Administration (HCFA) work together to achieve a fair and equitable resolution of the issues involving the economical purchasing,
and subsequent Medicaid billing, of covered drugs by entities participating in the 340B Program. Officials in HRSA and
HCFA concurred with our recommendations.